No. 19-

 

IN THE

Supreme Court of the United States

STRIKEFORCE TECHNOLOGIES, INC.,

Petitioner,
v.

SECUREAUTH CORPORATION,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,424 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 19, 2019.

 

Colin Casey Hégan
Wilson-Epes Printing Co., Inc.
